U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Willie Tyler v. United States, No. 20-6484
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 25,
2020. The government’s response is now due, after one extension, on February 1, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 3, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey A. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6484
TYLER, WILLIE
USA

QUIN M. SORENSON
FEDERAL PUBLIC DEFENDER'S OFFICE
100 CHESTNUT STREET
STE. 306
HARRISBURG, PA 17101
717-782-2237
QUIN_SORENSON@FD.ORG

